U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

September 18, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Jose Luis Sanch-Rosado v. United States of America,
S.Ct. No. 20-5453

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on August 6,
2020, and placed on the docket on August 24, 2020. The government’s response is due on
September 23, 2020.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including October 23, 2020, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Jeffrey B. Wall
Acting Solicitor General
cc: See Attached Service List

20-5453
SANCH-ROSADO, JOSE LUIS
USA

LYNN PALMER BAILEY
ASSISTANT FEDERAL DEFENDER
SUN TRUST BUILDING
200 WEST FORSYTH STREET
SUITE 1240
JACKSONVILLE, FL 32202-4326
904-232-3039
LYNN_BAILEY@FD.ORG
904-232-1937(Fax)

